ft

,' O
■
--a**

NO.

In The Supreme Court of the United States

EriK Jimenez, petitioner
V.
State of Texas, respondent

Proof of Service
I,Erik Jimenez, do swear or declare that on this
date March 20th, 2021, as required by Supreme
Court rule 29 I have served the enclosed motion
for leave to proceed in forma pauperis and petition
for a writ of certiorari on each party to the above
proceeding or that party’s councel, and on every

J

^pther person required to be served, by depositing an
evelope containing the above documents in the United
States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a
third-partycommercialcarrier for delivery within 3
days.
The names and addresses of these served are as
follow:
Texas Attorney General Office
P.O. Box 12548
Austin, Texas 78711- 2548
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on March 20,2021

